n

o

USCA11 Case: 20-12194

Date Filed: 12/28/2020

Page: 1 of 2

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-12194

vfrV

MICAH LAMB,

o
Petitioner-Appell nt,
versus

.#

ss'ssssr"*'

*V
Respondents-Appellees.

Appeal from the United States District Court
for the Middle District of Florida
Before WILSON and ROSENBAUM, Circuit Judges.
BY THE COURT:
Micah Lamb has filed a “motion for en banc rehearingf,] renewed application for certificate
of appealability and/or motion to expand renewed application for

certificate of appealability on
‘En Banc Request for Motion To Stay,” both of which
are
construed as motions for reconsideration, pursuant to 11th Cir. R.
22-l(c) and 27-2, of this Court’s
November 24,2020, order denying a certificate of appealability, denying le
ave to proceed informa
PaUPenS’ de"ying 3 «** ofaPPeIlate proceedings, and granting lea
ve to exceed the page and word
limits. Upon review, Lamb ’s motion for reconsideration is
DENIED because he has offered no
new evidence or arguments of merit to warrant relief.
uncertified issues or sentences,” and an ‘

A

1/

o

USCA11 Case: 20-12194

n
Date Filed: 12/28/2020

Lamb also has moved for leave to file
“ GRANTED to

Page: 2 of 2

a motion exceeding the page and word limits, which

“tent that the entirety of his construed
motion for reconsideration was *

considered.

2

'

4

f

n

n

USCA11 Case: 20-12194

§

Date Filed: 11/24/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-12194-E
micah lamb,
Petitioner-Appellant,
versus

i™RSYiS,S')SSSSAC0REECn0NS’
Respondents-Appellees.
Appeal from the United States District C ourt
for the Middle District of Florida
ORDER:
To merit a certificate of appealability, appellant Micah Lamb m
ust show that reasonable
jurists would find debatable both (1) the merits of an underlying claim
, and (2) the procedural
issues that he seeks to raise. See 28 U.S.C.
§ 2253(c)(2); Slack v. McDaniel, 529 U.S. 473, 484
(2000). Because Lamb has failed to make the
requisite showing, his motion for a certificate of
appealability is DENIED. Lamb s motion for leave to
proceed on appeal in forma pauperis is
DENIED AS MOOT. The motion for a stay of appellate proceedings is DENIED.
Lamb’s motion for leave to file

a motion exceeding the page and word limits is GRANTED
to the extent the entirety of his motion for
a COA was considered.

/s/Charles R. Wilson
_______________________
united states CIRCUIT judge
t

l\

Case 3:09-cv-00042-'p*S)-PDB

Ducum . . .39
1 2739

Filed 0O/2020

Page 1 of

Pa^isID

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
JACKSONVILLE DIVISION
MICAH LAMB,
Petitioner,
v.

Case No. 3:09-cv-42-J-32PDB

SECT, FLA. DEFT OF CORK,
et al.,
Respondents.
ORDER
On March 13, 2012, the Court denied Petitioner’s Second Amended
Petition (Doc. 34) for writ of habeas corpus and dismissed this case with
prejudice. See Doc. 91. Judgment was entered to that effect on March 14, 2012.
See Doc. 92. Petitioner appealed (Doc. 93), and on July 27, 2012, the Eleventh
Circuit denied Petitioner’s motion for certificate of appealability (Doc. 94).
Subsequently, on February 19, 2013, the United States Supreme Court denied
Petitioner’s writ of certiorari. See Doc. 95.
Petitioner thereafter filed numerous motions for post-judgment relief
(Docs. 99, 101, 103-08, 110, 113), all of which the Court denied (Doc. 117).
Petitioner also filed with the Eleventh Circuit approximately four applications
seeking authorization to file a second or successive habeas petition. See In re:

M . il

Case 3:09-cv-00042-T^PDB

DocumerU 139

Filed 05^2020

Page 2 of 4 PagelD

Micah Lamb, Nos. 16-16413; 17-11098; 17-15432; 19-10697. The Eleventh
Circuit denied all of Petitioner’s applications. In re: Micah Lamb. Nos. 16-16413
(Nov. 7, 2016); 17-11098 (Apr. 5, 2017); 17-15432 (Jan. 10, 2018); 19-10697
(March 26, 2019).
Petitioner has now filed with this Court two motions to alter, amend, or
reopen this case pursuant to Federal Rule of Civil Procedure 60(b) (Docs. 129,
132); motions to exceed the page limit (Docs. 128, 133); a motion for a free copy
of his docket (Doc. 134); and motions to supplement previously-filed motions
(Docs. 137, 138).
Upon consideration of the pending motions, as well as a review of the file
and Petitioner’s prior applications with the Eleventh Circuit, it is
ORDERED:
1.

Petitioner’s requests to exceed the page limit on Petitioner’s Rule

60(b) motions (Docs. 128, 133) are GRANTED to the extent that Petitioner’s
Rule 60(b) motions are accepted as filed.
2.

Petitioners requests to supplement his previously-filed motions

(Docs. 137, 138) are GRANTED to the extent that the Court has considered
these filings.
3.

As to Petitioner’s requests for relief from the judgment, pursuant to

Rule 60(b), Federal Rules of Civil Procedure, “[a] motion under Rule 60(b) must
2

Case 3:09-cv-00042-T^PDB

Docurnem 139

Filed 05^2020

Page 3 of 4 PagelD

be made within a reasonable time-and for reasons (1), (2), and (3) no more than
a year after the entry of the judgment[.]” As noted above, judgment was entered
in this case on March 14, 2012, the Eleventh Circuit denied Petitioner’s motion
for a certificate of appealability on July 27, 2012, and the Supreme Court denied
his writ of certiorari on February 19, 2013. Thus, the Court finds that
Petitioner’s requests for relief under Rule 60(b) were not filed within a
reasonable time and/or within one year of the entry of judgment. Therefore, his
requests (Docs. 129, 132), and all supplements thereto, are DENIED.
Alternatively, even if Petitioner’s requests were timely filed, after reviewing
and considering the file as a whole, the Court finds that Petitioner is not
entitled to the relief he seeks.1
4.

Petitioner’s request for a free copy of his docket (Doc. 134) is

DENIED as moot. The Clerk has provided Petitioner with a courtesy copy of
his docket sheet in response to this request.
5.

If Petitioner appeals the denial of his post-judgment requests for

1 Petitioner’s arguments in support of his requests for relief from
judgment are essentially a rehashing of the same arguments already addressed
by the Court in denying the Second Amended Petition. See Doc. 91. Further, to
the extent Petitioner is raising new claims, the majority of those new claims
were presented to the Eleventh Circuit in Petitioner’s 2019 application to file a
second or successive habeas petition, which the Eleventh Circuit denied. See In
re: Micah Lamb. No. 19-10697.
3

Case 3:09-cv-00042-"^-PDB

Documerrt 139

Filed 0^/2020

Page 4 of 4 PagelD

relief, the Court denies a certificate of appealability. Because this Court has
determined that a certificate of appealability is not warranted, the Clerk shall
terminate from the pending motions report any motion to proceed on appeal as
a pauper that may be filed in this case. Such termination shall serve as a denial
of the motion.
DONE AND ORDERED at Jacksonville, Florida, this 26th day of May,
2020.

TIMOTHY J. CORRIGAN
United States District Judge
Jax-7
c:

Micah Lamb, #J23663
Counsel of Record

4

Additional material
from this filing is
available in the
Clerk's Office.

